<=
I

soaee  CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1186

JOSHUA BAKER, Director, South Carolina
Department of Health and Human Services,
Petitioner,

v.

PLANNED PARENTHOOD SOUTH ATLANTIC, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR NEBRASKA,
INDIANA, AND 17 OTHER STATES AS AMICI CURIAE IN SUPPORT OF PETITIONER in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 5343 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 29th day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

he attics Konto 0, oor Ouudeawh, Sh

are
Notary Public 7 Affiant 397at

 
